<html>
<title> - SBA MANAGEMENT REVIEW: OFFICE OF FIELD OPERATIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


           SBA MANAGEMENT REVIEW: OFFICE OF FIELD OPERATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                            JANUARY 29, 2020

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 116-068
             Available via the GPO Website: www.govinfo.gov             
             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-457                       WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                 Melissa Jung, Majority Staff Director
   Justin Pelletier, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                           
                           
                           C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     2

                               WITNESSES

Mr. Michael A. Vallante, Associate Administrator, Office of Field 
  Operations, United States Small Business Administration, 
  Washington, DC.................................................     4

                                APPENDIX

Prepared Statements:
    Mr. Michael A. Vallante, Associate Administrator, Office of 
      Field Operations, United States Small Business 
      Administration, Washington, DC.............................    22
Questions and Responses for the Record:
    Questions from Hon. Nydia Velazquez to Mr. Michael A. 
      Vallante and Responses from Mr. Michael A. Vallante........    26
Additional Material for the Record:
    None.

 
           SBA MANAGEMENT REVIEW: OFFICE OF FIELD OPERATIONS

                              ----------                              


                      WEDNESDAY, JANUARY 29, 2020

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:34 a.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Golden, 
Kim, Davids, Chu, Veasey, Evans, Schneider, Delgado, Craig, 
Chabot, Burchett, and Bishop.
    Chairwoman VELAZQUEZ. Good morning. The Committee will come 
to order.
    Today, the Committee will examine the management and 
performance of SBA's field operations, which serve as SBA's 
``boots on the ground'' across the country and are vital in 
connecting small business owners with the resources they need 
to succeed. SBA's programs and services are delivered 
throughout 68 district and 10 regional offices located across 
the United States and its territories.
    At the top of the field structure is the Office of Field 
Operations (OFO), headed by today's witness, Associate 
Administrator Michael Vallante. Welcome, Mr. Vallante.
    OFO serves as the representative for four field offices at 
SBA headquarters in Washington, D.C. Among other 
responsibilities, OFO establishes and monitors district 
offices' performance goals, and provides policy guidance to 
help district offices implement the Administration's priorities 
uniformly throughout the country.
    District offices provide critical business development 
assistance to entrepreneurs and small-business owners. They 
also work with lenders to facilitate small businesses' access 
to capital. Additionally, they help ensure compliance with SBA 
program requirements, such as those for the 8(a) business 
development and HUBZone programs.
    Field staff regularly interact with small businesses in 
local communities to promote SBA's mission. In recent years, 
district offices have conducted more than 20,000 outreach 
events annually, such as lender trainings, workshops, and 
career fairs.
    I applaud the hard work of SBA's field staff and their 
ability to do more with less, but they and their small business 
customers are currently facing a number of challenges. First, I 
am concerned over the reductions in full-time equivalents, or 
FTEs, over the years. According to SBA, there are currently 687 
employees in the regional and district offices, compared to 813 
in fiscal year 2014, a 15 percent reduction.
    While I understand the constraints the agency must be 
facing due to level funding of the salaries and expenses 
account over the past years, I would like to learn more about 
how this reduction in force is affecting your operations and 
the services being provided to our small businesses.
    On another note, district offices are required to collect 
and report data on their outreach events and activities, so 
that SBA may track the performance of each office. However, SBA 
stopped using its reporting system in July 2019 due to budget 
constraints and began using a temporary reporting tool. I hope 
to hear more today about how OFO is currently capturing and 
evaluating this important data.
    Relatedly, I was troubled to see a report from the Office 
of the Inspector General (OIG) that found SBA lacked sufficient 
controls over district offices' performance data. The OIG 
concluded that district directors did not use performance data 
to strategize where to target outreach initiatives, which may 
limit SBA's ability to service under-served areas. The OIG also 
cautioned that OFO lacked an established process to evaluate 
customer feedback on the services provided by district offices.
    Without assessing customer feedback regularly, capturing 
performance data accurately, or reporting outreach activities 
correctly, SBA will not be able to maximize its programs' 
impact. We are also concerned over the lines of communication, 
or lack thereof, between headquarters and the district offices 
that was brought to our attention by a recent GAO review of 
SBA's HBCU initiative. Troublingly, GAO found that SBA 
headquarters failed to communicate its fiscal year 2018 plan to 
promote HBCUs to district offices, including those with HBCUs 
in their service areas. As a result, field staff were unaware 
of SBA's goals for engaging with HBCUs. The lack of 
communication about HBCU engagement is particularly troubling, 
and I hope to learn more about the steps OFO is taking to 
ensure this does not happen again.
    SBA's field team serves on the front line of the effort to 
deliver high-quality services to small businesses and 
entrepreneurs. Simply put, a well-functioning field team is 
vital to the success of SBA's mission.
    It is, therefore, imperative that district offices receive 
the resources they need to succeed; that SBA's field operation 
is structured logically; and that SBA headquarters communicates 
its goals and policies to the field team clearly.
    Mr. Vallante, I hope we hear more today about whether SBA 
leadership is satisfying each of these goals.
    I now would like to yield to the Ranking Member, Mr. 
Chabot, for his opening statement.
    Mr. CHABOT. Thank you, Madam Chairwoman. And thank you for 
holding this hearing today.
    When a lightbulb goes on and an idea becomes a business 
venture, questions of what to do next often challenge an 
entrepreneur. Similarly, when an existing small business 
confronts a hurdle they have not yet scaled, they are hoping to 
find assistance in overcoming their challenge. Confronting 
tough questions or tough situations in the world of a small 
business owner is commonplace. When facing roadblocks, some 
small businesses sometimes turn to family or friends or 
acquaintances or the Internet or the resources available to 
them at the U.S. Small Business Administration (SBA). This 
important hearing will explore the office at the SBA charged 
with executing and implementing many of the resources available 
to small businesses, entrepreneurs and startups. The Office of 
Field Operations, which oversees 68 district offices and works 
closely with 10 regional offices, delivers answers to the 
questions facing many small businesses across the country. From 
contracting to counseling to capital access, the SBA's Office 
of Field Operations supports small businesses in determining 
their next move. The office also acts as a customer service 
unit that connects America's hardest working companies with the 
SBA's resource partners, such as SBDCs or WBCs.
    The office employs the experts on the ground who deal with 
small businesses in a daily basis. In their quest to help small 
businesses, they are often the first to hear their complaints. 
They are also enlisted to jump into action to assist victims 
during and after a disaster by setting up recovery centers. 
These offices are the eyes and ears on the ground for the 
Federal agency charged with helping small businesses grow, 
expand, and most importantly, create jobs for Americans.
    I am looking forward to hearing from the associate 
administrator of this office today. The offices that he 
oversees must be as nimble and as quick as the small businesses 
that populate Main Streets all across America. Additionally, 
these offices must utilize technology to meet the needs of 
America's 21st Century small businesses.
    This Committee strives to create an atmosphere where small 
businesses can grow. The Office of Field Operations is an 
important part of this endeavor.
    I want to thank the witness for being here with us today 
and look forward to hearing about the office's 2020 goals.
    And Madam Chairwoman, I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    If Committee Members have an opening statement, we would 
ask that they be submitted for the record.
    I would like to take a minute to explain the timing rules. 
Mr. Vallante, you will have 5 minutes to testify and each 
Member will have 5 minutes for questioning. There is a lighting 
system to assist you. The green light will be on when you 
begin, and the yellow light comes on when you have 1 minute 
remaining. The red light comes on when you are out of time, and 
we ask that you stay within that timeframe to the best of your 
ability.
    Today we welcome Mr. Michael Vallante, the Associate 
Administrator of SBA's Office of Field Operations. Mr. Vallante 
became the acting Associate Administrator in March 2019, and he 
was appointed the permanent Associate Administrator in May 
2019. Previously, Mr. Vallante served as Regional Administrator 
for SBA Region 9, which covers California, Nevada, Arizona, 
Hawaii, and Guam.
    Mr. Vallante, welcome.

  STATEMENT OF MICHAEL A. VALLANTE, ASSOCIATE ADMINISTRATOR, 
   OFFICE OF FIELD OPERATIONS, UNITED STATES SMALL BUSINESS 
                         ADMINISTRATION

    Mr. VALLANTE. Thank you, Congresswoman. Thank you, Chairman 
Velazquez and everyone.
    Good morning. Again, thank you Chairwoman Velazquez, 
Ranking Member Chabot, Members of the Committee, for your kind 
invitation to talk about the Small Business Administration's 
field operations.
    My name is Michael Vallante, and as Associate Administrator 
of the Office of Field Operations, I am here today representing 
the hundreds of men and women who work in the SBA District 
Offices around the country. These are the men and women who 
bring our agency's products, services, and resources to 
America's small businesses, who in turn create two out of every 
three new jobs in our country.
    Many of you have met and interacted with my colleagues, 
whether it is Small Business Saturday, Veterans Small Business 
Week, your town halls, expos, or chamber events. I thank the 
Members of this Committee for your support of our employees in 
the field.
    In my nearly 3 years at SBA, including the last 8 months as 
Associate Administrator, I have seen some amazing things that 
perpetuate the good about our workforce.
    The first is the unbelievable scope and scale of SBA 
programs and services available to small business owners. But 
these programs do not get to the people who need them without 
our field staff. They provide the personal touch in each of 
your districts to make small businesses aware of everything we 
have to offer. I want our field staff out of their offices and 
in their communities evangelizing the many services SBA and our 
resource partners provide.
    The second is that for most of our agency's field staff, 
working for the SBA is not just a government job. Working for 
this agency is an honor, a passion, and a privilege to make a 
difference in their communities. At every single event I have 
been to where small businesses are honored, the small business 
honored recognizes, praises, and thanks our staff by name. For 
these business owners, their gratitude is very personal because 
you hear over and over, ``I would not be where I am if not for 
the SBA.'' There is no dollar value you can put on that.
    Our field staff wear many hats on any given day, but let me 
share some updates on specific outreach that I know many of you 
are interested in.
    In the first quarter of fiscal year 2020, our District 
Offices have engaged in over a dozen HBCU-related events with 
almost 400 attendees, including a Youth Entrepreneurship Summit 
conducted at Bowie State in November and an SBIC event at 
Jackson State University in December. Each District Office that 
has an HBCU in its region has been tasked with doing events 
with their schools tying it to major SBA initiatives like 
opportunity zones, rural programs, lending of government 
contracting.
    For those districts, and there are many, that do not have 
HBCUs in their regions, we have tasked District Offices to do 
events at vocational, trade, and technical colleges, as well as 
community colleges so we can ensure we are reaching young 
entrepreneurs.
    With our rural outreach, our district offices have done 
over 600 activities, attended by over 11,000 people, since 
October 1, including lender training, HUBZone education, expos, 
roundtables with USDA and SBA. Whether it is lending training 
to Farmers Bank in Montana, the Tolland Chamber of Commerce 
partnership visit in Connecticut, or the Women Mean Business 
entrepreneurial outreach event in Minnesota, our district 
offices have been and are reaching out into rural communities.
    While our field people continue to work tirelessly, we also 
face some challenges and realities. Let me give you one 
example.
    You should know that our field staff face a higher average 
attrition rate than the Federal average. Twenty-six percent of 
our OFO workforce is eligible to retire. Forty-two percent of 
our District and Deputy District Directors, the frontline 
managers in the field are fully retirement eligible today. To 
address this, a team of District Directors with over 100 years 
of experience in the field came together with HR specialists to 
help create a more flexible workforce that does not work in 
silos and is able to do outreach and marketing. They rewrote 
position descriptions, came up with two new positions dedicated 
to marketing and outreach, and a career ladder that helps us 
bring in employees at a grade level that saves the agency money 
in the short term. And there were more examples of our approach 
to finding positive solutions to challenges that we face that I 
hope to share with you during this hearing.
    I am honored and blessed to work with SBA's field team who 
work tirelessly every single day to make a difference for our 
country's 30 million plus small businesses.
    Thank you very much for inviting me. I look forward to your 
questions.
    Chairwoman VELAZQUEZ. Thank you, Mr. Vallante.
    I will recognize myself for 5 minutes.
    We are of the understanding that the historical FTE count 
for the Office of Field Operations is approximately 800 
employees. This past year there were only 687. Can you explain 
to us why we are not near the historical average today?
    Mr. VALLANTE. Thank you for the question, Madam Chairwoman.
    I cannot address what happened before. I do know that there 
has been a path of reduction in the number. But what I will say 
is what I have seen is there are several factors that are 
involved.
    One, we have, because HR is a fluid situation and it is 
more so with OFO, we have a higher attrition rate within our 
department, 14 percent attrition rate compared to 9 percent. 
So, people are moving out. I mentioned some of the numbers a 
minute ago. We have on the front side an issue with hiring in 
the sense that 100 days is the goal between when a position is 
posted to when it is filled. So, we have people that can walk 
out the door tomorrow, but it takes 100 days to fill the 
positions.
    Chairwoman VELAZQUEZ. You mentioned that a hiring pause 
contributed to the declining FTEs in field offices. Can you 
tell us when was this pause was implemented and what reasons 
were given for this pause?
    Mr. VALLANTE. One of the factors was the hiring pause that 
happened at the Agency in early spring. It was either late 
April or early May. And basically, it was a situation where we 
were told that based on the number of positions that were in 
the queue, that were going through a hiring process, there was 
a question of whether they would be able to be sustained 
because of the increase in costs for employees. And so that is 
when the pause took place.
    Chairwoman VELAZQUEZ. Is the pause still in effect?
    Mr. VALLANTE. No. What happened is after the pause was 
done, we had a switch in the model of hiring and the pause is 
not still in effect.
    Chairwoman VELAZQUEZ. You mentioned that SBA may not have 
had sufficient resources to allow OFO to fill vacancies in its 
pipeline. Can you please elaborate on the lack of resources?
    Mr. VALLANTE. Well, I think in terms of lack of resources, 
what we had in OFO is that anything related to HR has the 
greatest impact because we have the largest number. But we had 
a certain number of people that were in place when the pause 
was put on. We had a certain number of people that were in the 
pipeline. There were a large number of actions in the pipeline 
as well for the rest of the agency. It was not just OFO 
specific. And at some point it was decided that we had to take 
a pause to make sure that if we did all of the actions that 
were in place there would be enough financial resources.
    Chairwoman VELAZQUEZ. Before and after the pause, how is 
that affecting your operation?
    Mr. VALLANTE. Well, the biggest thing of the pause was a 
change in the way we do hiring. Before it was with an FTE model 
and now we do it with a compensation model. So, there was a 
change there as I came in, and one of the things that we have 
tried to do with our district office who do an amazing job is--
--
    Chairwoman VELAZQUEZ. Okay. Thank you.
    Mr. VALLANTE. All right.
    Chairwoman VELAZQUEZ. I heard when you mentioned the steps 
that you are taking to ensure that district offices are aware 
of SBA's annual goals pursuant to the White House initiatives 
on HBCUs.
    Mr. VALLANTE. Yes, ma'am.
    Chairwoman VELAZQUEZ. Okay. Are you going to be proactively 
organized in doing outreach and working with the HBCUs?
    Mr. VALLANTE. We already are. In the first quarter we have 
done over a dozen HBCU events with our district offices and 
resource partners. Over 300 people have attended. They have 
been directed. They have to do at least a couple.
    Chairwoman VELAZQUEZ. Okay.
    Mr. VALLANTE. The report is not due yet, but we are not 
waiting for the report.
    Chairwoman VELAZQUEZ. Can you tell me what have you heard 
from district office staff regarding Certify?
    Mr. VALLANTE. Yes. Certify was one of the things I want to 
say is to give a shout-out to our Business Opportunity 
Specialists who had to deal with Certify. They encountered some 
challenges with that program. They came up with workaround 
solutions that got businesses' annual reviews done. I give them 
a lot of credit for that. They could have said this is a 
problem, we are not going to do anything. But they went forward 
and did it. It is something that we need to deal with going 
forward because we have to make sure these businesses get their 
annual reviews done in time.
    Chairwoman VELAZQUEZ. My time has expired.
    Mr. Chabot?
    Mr. CHABOT. Thank you, Madam Chair.
    Mr. VALLANTE. Thank you.
    Mr. CHABOT. Mr. Vallante, no matter the industry, most 
small businesses nowadays utilize technology in one form or 
another. From retail stores having daily email offerings to 
high-tech startups developing software, technology is pretty 
ubiquitous. Does the SBA's Office of Field Operations have the 
technology in place to keep up with today's 21st century 
businesses?
    Mr. VALLANTE. I think we do have. We just had a changeover 
in technology, an upgrade in our technology for the people in 
the field, which I think has made a difference. I think more 
importantly, too, is that our District Offices are aware of 
some of the challenges that are faced with their customers or 
clients, the small businesses. And so, one of the things that 
they do in terms of the training that they do for small 
businesses is to help educate them in the challenges that may 
be out there on technology. And you know, one of the things 
that we are very concerned about and addressing is 
cybersecurity, especially as it relates to small businesses. 
Our District Offices in the month of December dedicate time to 
do training on cybersecurity for small businesses because that 
is when you have the greatest amount of action in terms of 
people trying to defraud businesses. So, we are dealing with 
that. And more importantly, I think our district offices are 
doing a great job of connecting with small businesses and 
helping educate them as well.
    Mr. CHABOT. Thank you. I am very glad to hear that you are 
trying to be as on top of, as much as possible, cybersecurity. 
We have had a number of hearings in this Committee, both when 
Republicans were in the majority and now the Democrats are in 
the majority. So, I think we both feel very strongly about 
this. And it is a pretty high percentage of small businesses 
that literally go out of businesses if they are hacked, and so 
those people lose their jobs. So, anything we can do, and I 
know we have been trying to get the SBDCs to have best 
practices available for small business folks out there.
    Mr. VALLANTE. Absolutely.
    Mr. CHABOT. So I would urge you to continue that. Thank you 
for doing that.
    You mentioned in your testimony the incredible scope and 
scale of small business resources available at the SBA. Often 
on this Committee, we hear that a small business owner was not 
aware of the SBA resources that are available out there. Could 
you tell us how does your office market and advertise all the 
SBA resources that are available to small businesses and 
entrepreneurs and startups?
    Mr. VALLANTE. I think one of the things that our offices 
are very, very good at, is that they know their districts 
better than anybody. One of the things that I have done from 
the OFO is to turn to our District Offices and say rather than 
someone in Washington telling you you have to do X number of 
things, tell us what are the best ways you can be effective in 
your community to get the message out about SBA and become 
literally evangelists about what we have to offer. By doing 
that, one of the areas that came up was veterans' outreach. We 
have a veterans' person in every district office. We have 
VBOCs. But one of things District Offices said is they want to 
be able to do more veterans outreach and we now have the 
ability to have them do that.
    One of the other things that we have done in some of our 
District Offices is we have large businesses that use a lot of 
small businesses as contractors. A lot of those small 
businesses are in the minority community. So, we have worked 
with the Office of Diversity Inclusion in these large 
businesses to be able to access some of those small businesses 
that could use either lending assistance, training, building a 
business plan, those kind of counseling services. So, we are 
trying the usual things of lender roundtables, education 
events, attending events, hundreds of events. But we are also 
trying some new things to reach some of our audience.
    Mr. CHABOT. Thank you very much.
    I have got about a minute left, so let me mention one final 
thing. In our written testimony you had mentioned the SBA's 
Office of International Trade and also the USMCA agreement 
which was recently passed in the House, the Senate, and I 
believe the president signed it into law?
    Mr. VALLANTE. Signing it today, I think.
    Mr. CHABOT. So, and I think that is huge. And we also saw 
phase one in the China deal happen, which also is encouraging. 
How are you all working with small businesses that are 
interested in overseas marketing? And, you know, the vast 
majority of consumers on this globe that we all share live 
outside the borders of the United States. You have got a pretty 
small percentage of small businesses actually trade and sell 
internationally. So, what do you all do there?
    Mr. VALLANTE. Great question. To your point, I think one of 
the things most people are not aware of is the products and 
services from the Office of International Trade that SBA has. 
It has not been really one of those things that we have 
marketed very well. We, you know, earlier this year had a new 
Director of that office come in and we partner with them. We 
have people in the district offices that work specifically on 
international trade, and we partner at the national level with 
the Office of International Trade to make sure our districts 
and our Regional Administrators are aware of all the products 
and services OIT has to offer to small businesses to open up to 
foreign markets.
    Mr. CHABOT. Thank you very much.
    My time has expired, Madam Chair.
    Mr. VALLANTE. Thank you, sir.
    Mr. CHABOT. Thank you.
    Chairwoman VELAZQUEZ. Time has expired.
    Now we recognize the gentlelady from California, Judy Chu, 
Chairwoman of the Subcommittee on Investigations, Oversight, 
and Regulations.
    Ms. CHU. Mr. Vallante, this past November I held a field 
hearing in my district in southern California to examine the 
ways that SBA can better connect with and support immigrant 
entrepreneurs. As a fellow southern California resident, you 
understand that our communities are rich with immigrants who 
come to this country and start small businesses. But I learned 
at this hearing that entrepreneurs and business owners are too 
often unaware of SBA and the services available to them because 
outreach and services are not provided in languages other than 
English. Now, in Southern California we have whole gigantic 
populations where the primary language is Chinese or Korean or 
Vietnamese.
    So, could you discuss any strategies within the Offices of 
Field Operations to improve in-language resources and outreach 
to these communities?
    Mr. VALLANTE. Thank you. I appreciate that question because 
as you said, where we come from is hugely diverse in southern 
California. And what we have is in the minority communities, we 
have the largest growth of the young entrepreneurs that we need 
to reach.
    One of the strategies that we have developed is while it 
may be difficult to reach everyone, one of the things we have 
recognized is that whether it is in the Asian community or the 
Latino community, reaching out through the media, to the media 
that represent those communities is one very effective way to 
reach a larger audience. While we do have people that speak the 
language and people who can represent us at different events, 
what we have found is that in those communities especially, 
they listen, the folks in those communities listen to the 
media. They trust them. And so, what we have done in certain 
areas is partner with the media to communicate into undeserved 
communities.
    To just give one quick example, we pulled together in 
Region 9 our Public Information Officers and Public Affairs 
Specialists to do a training. When we did it, we did it in 
Fresno at the Studio of Univision because what we wanted folks 
to do was to understand what the news people are looking for 
from SBA that will allow them to be able to communicate our 
message. In some districts we have our Deputy District 
Directors who are fluent in other languages that are on at 
least once a month on radio shows talking about SBA. Again, 
what we are trying to do is use that broad avenue to be able to 
reach a greater audience than what we can do individually.
    Ms. CHU. So you said you use the media, but if somebody 
comes in and they primarily speak another language then----
    Mr. VALLANTE. We do have some marketing materials that are 
in different languages that we can make available to them. I 
think one of the things we are very proud of is a lot of our 
district staff do represent the communities that they serve. 
And so, they are able to answer questions.
    Ms. CHU. Do you have a breakdown of the language 
capabilities?
    Mr. VALLANTE. I do not, ma'am, but I would be happy to get 
it to you if I can.
    Ms. CHU. Yeah. I would be very interested in that and will 
definitely follow up on that one.
    Okay. Mr. Vallante, the Committee is aware of health and 
sanitation concerns at the Los Angeles District Office, which 
is the result of significant flooding that occurred in October. 
I understand that employees were placed on telework status 
while the General Services Administration and the landlord 
worked to remediate the damages caused by the flood.
    So, Mr. Vallante, can you provide the Committee an update 
on the progress being made to reopen the Los Angeles in a safe 
and clean condition?
    Mr. VALLANTE. Thank you for that question. It is one that 
hits very close to home.
    Yes. We had a situation where we moved into a new property. 
Shortly after moving in there, literally days later, there was 
a flood. It was clear from what took place after that that it 
was not going to be a quick process to get that cleaned up or 
remediated properly. My goal, and the agency's goal, is the 
health and well-being and safety of our employees first. And 
so, we were able to work with a team from GSA and SBA 
leadership that moved quickly to move us out of the place that 
we were into, a swing space, which is smaller. It is in 
downtown Los Angeles. It is smaller. It is in a L.A. County 
courthouse. But I will say while it is a smaller space, and it 
is a temporary space. It is clean. It is sanitary. The people 
that take care of the building are amazing. It is a night and 
day difference, and we are grateful for that. And my goal here 
is to ensure wherever we move to next is not only conducive to 
our clients but more importantly is safe, clean, and the health 
and safety of the people that work in the office.
    Ms. CHU. So you are not going back to the place that was 
flooded then?
    Mr. VALLANTE. That is to be determined between GSA and SBA.
    Ms. CHU. Oh.
    Mr. VALLANTE. But right now, we are in a swing space.
    Ms. CHU. And is the landlord paying for the damages?
    Mr. VALLANTE. No. The answer is no. We are not paying rent 
there at this point in time but no, we had to move. We decided 
to move out because we saw that it was not going to be--in good 
conscience we cannot keep our people or ask them to go into a 
place that is not, in our opinion, healthy and safe.
    Ms. CHU. Yeah. Thank you. I yield back.
    Chairwoman VELAZQUEZ. The gentlelady's time has expired.
    Now we recognize the gentleman from Tennessee, Mr. 
Burchett, for 5 minutes.
    Mr. BURCHETT. Thank you, Chairlady, Ranking Member. Thank 
you for being here. And I have your name hyphenated, spelled 
out here so I will say it right, Mr. Vallante.
    Mr. VALLANTE. Yes.
    Mr. BURCHETT. We have trouble in this Committee saying 
people's names. And I am guilty as charged. I have a good time. 
The Chairlady and the Ranking Member have been very kind to me, 
and I forgive them for their lack----
    Chairwoman VELAZQUEZ. That is true.
    Mr. CHABOT. But our patience is limited.
    Mr. BURCHETT. Excuse me. You both are out of order.
    But thank you, brother, for being here.
    Chairwoman VELAZQUEZ. I control the time.
    Mr. BURCHETT. Yes, ma'am. I know. Ma'am, I have a wife and 
a daughter. I completely--yes, ma'am. You are correct. Let me 
get that right.
    I appreciate your testimony as well as your efforts for 
small businesses, of course, and your career. Do you, or any of 
your field offices host roundtables with local small business 
owners to hear them out on what they need from the SBA? And 
when I say that I do not mean some kind of staged event for, 
you know, for the media, and you call folks in and you feed 
them the questions and then, you know, and they just come in 
and tell you how it is sunshine and unicorns everywhere. I get 
ticked off about that because we do it up here and we do it for 
the press and we do it for our good friends at C-SPAN and the 
rest of it. And to me it is just a big, freaking waste of time, 
brother, and I would like to see if you all are really out 
there listening to these folks. Because I represent a lot of 
hardworking folks, a lot of our inner city, and they are still 
struggling. They have jobs but I like to see these empty 
buildings in these deserted areas, something done about it and 
it kind of wears me out. Sorry I went to preaching. It is not 
in my notes but my guys, they do not--just like the president's 
teleprompter operator. They are just looking around, where did 
he get that? Where did he get that? Anyway, brother, go ahead.
    Mr. VALLANTE. Well, to answer your question, congressman, I 
would say our District Office folks, with everything that they 
have on their plate, with all of the things that they have to 
do from a compliance and outreach and marketing and a training 
standpoint, quite frankly, do not have the time to do the kind 
of show, if you will.
    Mr. BURCHETT. So let me stop you there.
    Are we covering you up with bureaucracy? Just me and you 
talking, off the record.
    Mr. VALLANTE. No. No, I do not think so. I think what we 
are trying to achieve with our district offices is with the 
resources that we have, to give them more, not only have us 
have more accountability so that we can report to you the 
activities and the achievements that they are doing, but to 
give to them who know their districts the best the opportunity 
to make the greatest impact in their districts. In some places 
that will be rural actions. In some places it will be 
opportunity zones. In some places it is lender outreach. In 
many places it is doing more activities for our veterans' 
community. We are trying to empower them with the resources 
that we have, to go as far as possible and to do things that 
are real and not make believe.
    Mr. BURCHETT. What else can we do here in Congress to help 
you help our small business owners?
    Mr. VALLANTE. I think one of the great things, and we have 
it already, and anything we can build on is a relationship that 
our SBA district offices have with their congressional members 
and their staff in the district. Anytime that we can be at 
events that you are having--sorry about that--that you are 
having or holding that we can be at and pitch SBA and our 
products and services that are available, we want to do that. 
Anytime that we are doing events that you can introduce us to 
or we need you at, we would love to have you at them. I think 
all of that, with not just SBA but also our resource partners--
our SBDCs, our Women Business Centers, our SCORE volunteers--
all of that is a synergy that helps create a better business 
climate, a better opportunity for the business to succeed. 
There are a ton of things out there to help small business. We 
have some. The states have some. Municipalities have some. All 
of them working together can help those small businesses.
    Mr. BURCHETT. I appreciate all that. I just feel like some 
of our least served folks, just hardworking people, they did 
not have the shot I had with two wonderful parents. And I just 
have been very fortunate, and God has been very kind to me. But 
I sure would, maybe if you could have one of your folks get in 
touch with me.
    Mr. VALLANTE. Absolutely.
    Mr. BURCHETT. I would like to have one of those roundtables 
with some of those working people and not just some staged 
event.
    Mr. VALLANTE. We would love to do it, Congressman. 
Absolutely.
    Mr. BURCHETT. Thank you, brother. I appreciate that.
    Mr. VALLANTE. Thank you.
    Mr. BURCHETT. We will do it.
    Chairlady, I yield back my remainder of 3 seconds.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize the gentleman from Pennsylvania, Mr. 
Evans, Vice Chair of the Committee.
    Mr. EVANS. Thank you, Madam Chair.
    According to November 2019, the GAO report, the SBA had 
signed several alliance memorandums with historical black 
colleges in 2008 to 2018. These memorandums are 2-year 
agreements with historical black colleges that state the 
parties would develop and foster working relationships with the 
intent of strengthening small business development areas. 
November 2019, the GAO report found both positive and negative 
experiences in historical black colleges resulting from these 
memorandums.
    Mr. Vallante, how many strategic alliance memorandums with 
historical black colleges are still in effect?
    Mr. VALLANTE. Quite honestly, I do not know. I would have 
to get that from our Office of Entrepreneurial Development, 
which is where that would be housed, and I would be happy to 
get that for you.
    Mr. EVANS. Okay.
    Do you track the performance of the SBA in relation to 
these memorandums?
    Mr. VALLANTE. Now, that I can answer, sir.
    Yes, we do. And one of the things that we have changed, as 
the Chairwoman had mentioned in her remarks that I wanted to 
make sure we made clear, one of the problems or the challenges 
that we had is we were not properly recording some of the 
activities that are being done. And so, we changed our 
reporting tool that we had to ensure that District Offices that 
are working in partnership with HBCUs and our Resource Partners 
record all of their activities. And not only record them to 
have done something, but what it was, and how many people 
attended; get into the granular part of it because what we are 
trying to do is not only see what is being done but see what 
else we can do elsewhere that is not being done and take some 
of those best practices.
    Mr. EVANS. Has the SBA addressed the issues outlined in the 
November 29th GAO report, not including the memorandums, 
producing any results?
    Mr. VALLANTE. I would say that the results that we have as 
of October 1 to December 31 is right now over a dozen HBCU 
events that have been done with over 400 attendees and more 
that are planned by district offices. We have just finished 
quarter one. One of the things that happens with the tracking 
tool that we have is our Regional Administrators will sit with 
District Directors who have been charged with reaching out to 
the HBCUs and see what has been done and ensure that those 
things get done before the end of the year. The report, I 
believe, is expected to come out from the White House sometime 
this year but we are not waiting. We know that this is an 
important constituency that we need to reach out to and be part 
of our everyday plan in the District Offices and they are doing 
it.
    Mr. EVANS. Who is specifically in charge of the SBA 
outreach to historically black colleges?
    Mr. VALLANTE. It is done from the District Offices. And 
what they do is they partner with our Resource Partners, our 
SBDCs and do the outreach into the HBCUs.
    Mr. EVANS. Have the SBA resource partners submit plans for 
SBA outreach with historically black colleges?
    Mr. VALLANTE. The plans are part of the overall operating 
plans that our District Offices have. That is one of the goals 
that they are set to achieve is at least doing two events 
related to the major programs that SBA has.
    And as I mentioned in my opening, the other part about that 
is we looked at that report and said where are other places 
that we are not reaching out to that we should be reaching out 
to that are opportunities that we are missing? One of the 
things that we identified was vocational trade, technical 
schools, community colleges. And so, places that do not have 
HBCUs we have tasked the District Offices to do outreach into 
those areas as well.
    Mr. EVANS. Are these plans publicly available?
    Mr. VALLANTE. The results that we have are in our internal 
document which we call GMAT, which goes to one of the GAO 
recommendations that was given to us. What we do is we roll 
those up. We take a look at them because they are a measuring 
tool. And they are not public information. They are internal 
documents. But I am happy to share with any of you all of the 
activities we have been doing specifically with HBCUs to not 
only the dates and the places and the number of people.
    Mr. EVANS. Real quick. Do you think they should be public?
    Mr. VALLANTE. I think a lot of that is internal for our use 
to be able to strategize and be able to go to places, or know 
where we are not meeting goals and where others are exceeding 
goals and how we can use that to improve our performance. But I 
think it is something that is more internal.
    Mr. EVANS. Thank you.
    I yield back the balance of my time.
    Mr. VALLANTE. Thank you, Congressman.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize the gentleman from North Carolina, Mr. 
Bishop.
    Mr. BISHOP. Thank you, Madam Chairman. Thank you, Ma'am.
    Mr. Vallante, I am a new member. I have been here all of 4 
months, and so I wonder if the beginning, and perhaps it was 
covered, but as you were giving your comments, and I have heard 
it otherwise, you mentioned that your district and regional 
offices work hand-in-hand with your resource partners. And you 
mentioned specifically, some of these I know what they are, but 
I do not know what the Small Business Development Center is, 
the SBDC. Would you explain what that does? And are they more 
widely geographically distributed or what?
    Mr. VALLANTE. The SBDCs, they operate under our Office of 
Entrepreneurial Development. They are given grants. They are 
more in the communities. They are more storefronts, if you 
will.
    Mr. BISHOP. All right.
    Mr. VALLANTE. And they are a key Resource Partner for us in 
that we are able to leverage our ability to outreach and open 
the doors to lending opportunities that exist. I would say that 
there are SCORE volunteers who provide the counseling and the 
training. Our Women Business Centers, our Veterans Business 
Outreach Centers, all of those are the ecosystem that we work 
with to become a force multiplier in the field.
    Mr. BISHOP. I see.
    You know, and most of these hearings for me, I am sitting 
here on my phone and trying to learn about background that 
might give me some insights. I do not know much about how SBA 
operates in my own district, so I looked it up and it looks 
like North Carolina has a district office in my hometown of 
Charlotte. And then I go seven counties east in a very rural 
district and there are a couple of satellite district offices 
as I see them. And interestingly, they are located, a couple of 
them are located at community colleges. Is that a common 
strategy? It seems to make some sense to me.
    Mr. VALLANTE. It does make sense. I was about to say you 
are fortunate and blessed, if you will, because you have a 
state that has what we call ``alternate worksites.'' Because 
you do have, I mean, obviously, one office in Charlotte, North 
Carolina, is not able to cover an entire state. So, you have an 
office which is able to focus on rural areas. We actually 
advertised just recently for a position in Wilkes-Barre, 
Pennsylvania, for the same kind of thing. It is in a rural 
area.
    Alternate worksites I think are things that we should be 
looking at because it allows us to not only get into a 
community but plant a flag there. Our folks are there every 
single day and they can become part of the community. That is 
one of the challenges that we have when you do not have the 
resources to be able to do that. But I think those are things 
as we go forward I want to continue to look at because I think 
one of the things, and I mention it in my comments, is that 
when you are there all the time, whether it is on any kind of 
issue, and you build credibility with the community, they are 
going to trust you. And when they trust you, they are going to 
say, here is where I am strong. Here is where I am weak. How 
can you help me? And I think having these kinds of alternate 
worksites like you mentioned that you are fortunate to have in 
North Carolina is something that I think we can look at or look 
at in other places as well.
    Mr. BISHOP. Final question with the time I have got 
remaining, when you were talking about accountability and sort 
of metrics, how you measure the operations of your Office of 
Field Operations and all the various district offices and so 
forth, that you talked about types of meetings and types of 
events and attendance and so forth. I get the sense that you 
are measuring sort of outputs, seeing what the individual 
officers do in terms of specific activities. But do you do 
anything to go deeper than that to figure out what the impacts 
are? That is to say you may be having a lot of events, but the 
attendance is not large. Or even if the attendance is 
significant, it does not result actually in penetrating the 
market with the information that is needed so that utilization 
increases.
    Does that make some sense?
    Mr. VALLANTE. Outcomes versus outputs.
    Mr. BISHOP. I think that is well said. You summarized it in 
two words.
    Mr. VALLANTE. I think that is absolutely right. One of the 
things that we are trying to do is, we are able to capture 
success stories, which are, you know, any time you listen to 
them it is everything from the mom and pop store to biotech 
company or biotech small one-person firms that are creating 
technologies that are going to change the way people live. It 
is amazing stories that we have.
    One of the things that we are doing, it was referenced that 
we have addressed it because of a GAO recommendation, is what 
we call our customer service experience, which was a 
recommendation which we took to heart, and we started in 2019. 
And we are continuing to get feedback from people that attend 
our evens. What worked, what did not work, what did they use, 
what was the outcome of that? I think that is a measure that we 
have just started to do earlier in 2019 that I think will help 
us bridge that gap.
    Chairwoman VELAZQUEZ. The time has expired.
    Now we recognize the gentleman from Illinois, Mr. 
Schneider.
    Mr. SCHNEIDER. Thank you, Madam Chairwoman. And Mr. 
Vallante, thank you for joining us today.
    Mr. VALLANTE. Thank you for having me.
    Mr. SCHNEIDER. And sharing your perspective.
    We have had a number of events in my district. I represent 
the northern suburbs of Chicago in Illinois. It has been very 
good working with the Illinois District Office on a number of 
these different events. In particular, I cannot speak more 
highly of the Small Business Development Center. Our events 
have, many of them, been standing room only, so there clearly 
is a demand for this information and the chance to work with 
the SBA
    We have also, the Illinois office has coordinated $60 
million in SBA loans just in my district just last year. So, 
thank you again for what you all are doing.
    As far as reaching out, preparing for an event, events that 
oftentimes are largely led by your team, leaving no empty seat 
in the room, we can get bigger rooms. If we are going to get 
bigger rooms, we need to bring in more people. What kind of 
data can we tap into that you guys might have on industry data 
to identify potential targets to reach out to and bring into 
these events?
    Mr. VALLANTE. I would say that one of the things that we 
are finding, and again, I do not mean to go back to it, but our 
customer service experience that we have started is to get 
feedback from people as to what it is that they are looking 
for. I mean, we just started getting data in because it just 
started, but one of the things that we found is for a large 
group of people that filled out the survey, we are seeing that 
they prefer to do webinars rather than brick-and-mortar events. 
So, we are going to dig a little deeper into that.
    I think one of the other things that our district offices 
are really good at is providing a variety of different things 
that people can attend specifically targeted to whatever 
subject matter that they are particularly interested in. I know 
in some of my district offices they will bring in other Federal 
partners to talk about programs that are there. They will bring 
in the IRS to talk about taxes. Anything that we can do to 
bring people into the door or online with webinars, to educate 
everything that we have to offer as a one-stop place to find 
out how you can grow your business.
    Mr. SCHNEIDER. Great. And one thing I will add, I think the 
ability to integrate the web series, as well as then the 
occasional in-person to bring people together, that face to 
face still has value. I think you can reinforce it with 
webinars, and if we can help you with that, I would be 
interested in it.
    I want to touch for a second on you talked about your 
hiring process. You said it is 100 days from the time vacancies 
open. And you know, there are three processes to fill that--
recruiting qualified candidates. Second is the evaluation, 
interviewing, selecting the candidates. And then onboarding the 
new hires. Is there a specific place you are having trouble? 
Are you struggling to get applicants? Are you struggling to do 
the evaluations? Is it onboarding? One hundred days is a long 
time.
    Mr. VALLANTE. It is a long time. And it is the standard of 
success that they define within government; from the time it is 
posted to the time it is filled. One of the things that we are 
doing in OFO is we are encouraging our managers in the field, 
rather than just doing blanket announcements, to look at 
different hiring authorities that could shorten the timeframe. 
That would help us tremendously because, as I mentioned before, 
we have people going out the door at a quicker rate, and those 
people can go out the door on any given day. They can give 2 
weeks if they want to, but we had, you know, instances last 
year where a District Director calls on a Friday and says I am 
retiring on a Saturday. And so now we have that period of time.
    So, there is some special hiring authorities that are 
available to us and we have been educating our field staff on 
how to use those. They include military spouses, 30 percent 
veteran disability, schedule A, Peace Corps volunteers. All of 
those things will shorten the process that we can do something 
about.
    Mr. SCHNEIDER. And again, the best way to avoid that is to 
try to reduce the turnover. And if there is anything we can do 
to help with that we would like to.
    My last topic is looking for ways that we can coordinate 
more effectively, to coordinate with your office with our team 
among programs. You touched on it. Everything from the mom and 
pop to the next breakthrough technology, we have those 
conversations with folks in our district. I am sure we are not 
unique, that that is across the country. But are there ways 
that we can better coordinate to work with your office to get 
the message out and help facilitate the access to capital?
    Mr. VALLANTE. I think it is amazing to me, someone had said 
to me when I was doing this, well, maybe you need to explain 
how the District Offices work with the members of Congress. And 
I was like, no, I do not need to explain that because the 
District Offices work with the Members of Congress in their 
district. I think just the continued cooperation and 
communication back and forth makes a huge difference. If we can 
let you know what is going on and your office asks us to 
participate in things, whether they are large or small, 
anything that we can do collectively and collaboratively I 
think will help make a difference and get that word out.
    Mr. SCHNEIDER. I am past time but the last thing I will say 
to emphasize your point is the more we can partner your offices 
with our members of Congress, there is little of greater impact 
that we as members can do than helping our small businesses 
succeed.
    Chairwoman VELAZQUEZ. If the gentleman will yield?
    Mr. SCHNEIDER. I will yield my extra time.
    Chairwoman VELAZQUEZ. What I will say is that oftentimes, 
Members of Congress reach out to you so that we can set up 
workshops, but other times you organize workshops and events in 
our districts. I would suggest that you reach out to the Member 
to let them know that this is happening and that they are 
welcome to come.
    Mr. VALLANTE. I will make note of that and make sure that 
happens. I appreciate that, Chairwoman.
    Chairwoman VELAZQUEZ. Time has expired.
    Now we recognize the gentlelady from Kansas, Ms. Davids.
    Ms. DAVIDS. Thank you, Chairwoman. And to you and to the 
Ranking Member for holding this hearing today.
    So, I represent the Kansas 3rd Congressional District, 
which is in the Kansas City Metro Area. It is on the Missouri 
side, the Great Plains Regional Office in Kansas City. But 
actually, this conversation about the relationship and the 
communication between regional offices and various members I 
have found, and maybe it is because entrepreneurship is kind of 
baked into the DNA of our region, that we have begun to develop 
a really good line of communication. So, when events are going 
on, we definitely reach out to the office and let them know. 
And we have been fortunate enough to have people from the SBA 
reach out to us when events are going on. And I hope to keep 
that collaboration going.
    One of the things that you mentioned in your testimony was 
the personal touch and the frontline that the folks who are in 
districts and the employees who are on the ground have. I am 
curious if you could tell us a little bit about that process 
for both how the district offices interact with the leadership 
and how their feedback and integrated. And then how the 
feedback from, the more recent, you were mentioning the 
outcomes and measures that you were taking from customer, 
basically the customer feedback.
    Can you tell us a little bit about the process of how that 
is going to be integrated since I know that is a newer thing 
for you all?
    Mr. VALLANTE. Absolutely. Thank you for the question.
    I think to your point, first about the personal touch. This 
is very personal for people. I mean, what I have seen is that 
they are creating opportunity not just for themselves but for 
their families. They are the ones that hire people in the 
communities. They are the ones that sponsor Little League teams 
and things like that. So, and sometimes it takes a long period 
of time to get to that outcome of actually providing the 
service that they needed. And our people in the field stick 
with theme every step of the way. So, there is an investment of 
that.
    To answer your question about collecting information. 
Again, one of the challenges that we have, and someone 
mentioned a nimble workforce, the more information and data 
that we can collect that can help our district offices spend 
the resources that they have in a more targeted manner, in a 
more effective manner, I think helps everybody. And so, we have 
a wide-open line of communication between the field and OFO. 
You know, I still serve as the Regional Administrator for 
Region 9, as well as the Associate Administrator. So, we have a 
great line of communication with the field.
    I will tell you some of the challenges that we had with 
GAO. What we did was we went to the field and asked them to 
help solve the problem. The thing that we had on our tracking 
of our metrics, if we had gone with the system that was in 
place it would have cost us in the vicinity of $300,000, and it 
would have lasted about 3 months. Instead what we said is, 
let's come up with a better system. And we turned to people in 
the field to come up with the system because they are the end 
user. We ended up with a much better system and it cost the 
taxpayers absolutely nothing. That did not happen because of 
me; that happened because we turned to people who are the end 
users. Many times, I think what happens is we do not reach out 
to the field or we have not reached out to the field and say, 
how does this impact you and your ability to do the job? We do 
that now.
    Ms. DAVIDS. Thank you. So I just want to, first of all, 
thank you for acknowledging the fact that the folk who are on 
the ground working with the people who are coming in and trying 
to get help with starting their small businesses, being on the 
ground, that is a lot of times where some of the best ideas 
come from and some of the most effective solutions to issues 
that we are facing come from the people who are really on the 
front lines.
    I will yield back in just a second. I just want to say that 
I have very much appreciated the work at the regional level, in 
the Great Plains region, that I have seen from our SBA. 
Sometimes there are issues, but I do feel like we have a good 
line of communication there. And I will look forward to hearing 
more from you in the future about how we can just make sure 
that we are continuing to innovate and make this much better 
for the folks who are trying to start small businesses.
    Mr. VALLANTE. I appreciate that.
    Ms. DAVIDS. I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Now we recognize the gentleman from Maine, Mr. Golden.
    Mr. GOLDEN. Thank you, Madam Chair.
    First of all, sir, I want to be sure to be complimentary to 
the team in Maine. Amy Bassett is our district director and her 
team I think has done great work in Maine for years now. But 
they have been great to work with. With our office I could not 
possibly have any complaints in regards to the communication, 
the willingness to work with us in setting up our own tables 
and other events and just kind of seeing the handoff of 
constituents'' business owners that we come across out in the 
field with my staff who are looking for some help.
    Mr. VALLANTE. That is great to hear. They are great people.
    Mr. GOLDEN. I appreciate it very much.
    I represent the second most rural house district in the 
United States of America, though, and I can tell you, it is a 
numbers game. People do not necessarily think of SBA as 
anything more perhaps than a lender. And about those lending 
programs. So, when I think about other distance they have to 
cover, 6 hours from north to south driving in my district and 
about the same east to west, they do not have enough boots on 
the ground for that physical presence.
    And I wanted to talk to a little bit about the force 
multiplier effect. You know, given how difficult it can be in 
big rural geographic areas. I am interested to know how far 
SBA's commitment is to standing up to Office of Rural Affairs 
in 2020. And you may be aware that I, along with a number of 
colleagues, many who are on this Committee, sent a letter to 
SBA last year asking for some specifics about the mission of 
the office, the characteristics, and what is the status given 
that that office was established in 1990 and under multiple 
administrations, really, was never stood up
    Mr. VALLANTE. I would say first to your point about the 
distance, you are absolutely right. I am proud of our field 
staff. Amy and her team, and across the country, after the MOU 
was signed by former Administrator McMahon with the USDA, we 
really took the task at the field level to go out and partner 
with USDA and get to as many places as possible as many ways as 
possible to educate people about the two different programs and 
what each has to offer. They are complementary. Putting out 
marketing documents that market SBA and USDA products so that 
when each staff is out and the other is not with them, they can 
market it.
    Just this past year alone, because----
    Mr. GOLDEN. I appreciate the work that they are doing. I 
really do.
    Mr. VALLANTE. Right.
    Mr. GOLDEN. But I do want to focus my time on the Office of 
Rural Affairs.
    We sent a letter in July. I think we are pretty patient. We 
have not gotten a response yet. My understanding is that the 
response has been drafted. It just has not made its way through 
like the congressional liaison process. And at this point I am 
curious when we might expect it.
    Mr. VALLANTE. I can give you an update on that. The letter 
was drafted. It was circulated. The letter was drafted. And I 
believe right now it is at OMB waiting for them to sign off on 
it and get it back to you.
    Mr. GOLDEN. Thank you. That is very helpful.
    Do you know whether SBA will include a funding line for the 
office in its 2020 budget request?
    Mr. VALLANTE. I do not know if that is going to be included 
right now. It is funded through OFO.
    Mr. GOLDEN. And is that something you might support?
    Mr. VALLANTE. I think what I am supporting at this point is 
being able to do everything we can. I look at the Rural Affairs 
Director Office as a value-add to everything that we are doing. 
It gives a national voice to all of the work that has been done 
and is done every single day by the people in the field. It 
gives a national voice to that. It also is a way to coordinate 
with other Federal partners. There are numerous programs, 
whether it is Labor, Energy, that we have the ability to 
partner with into the rural community, and it gives us someone 
who can do that coordination.
    Mr. GOLDEN. In response to the letter, I assume it is in 
response, and I think it was a positive one, Director Michelle 
Christian was assigned to the position and I believe has like a 
half a staff member. And I just want to point out she came to 
my district last week.
    Mr. VALLANTE. Yes.
    Mr. GOLDEN. We had a great tour around the district. Met 
with multiple businesses in multiple communities. Had a number 
of action items, just like you just talked about. Different 
agencies that might be able to help them as they try and bridge 
some gap funding and other things, talking about opportunity 
zones, talking with Amy and trying to coordinate an effort to 
get some wraparound services. And already I have seen in a week 
two out of three action items followed up on. And I think it is 
that singular focus that I think is the potential asset to you 
of that asset. Obviously, though, it would need some resources 
in order to be effective across the country.
    Mr. VALLANTE. I believe that what you just mentioned, I 
know Michelle has about four or five in the next month, events 
similar to what you experienced. We have a whole bunch of 
opportunity zone events that are taking place. She is 
dovetailing on some of those to do rural opportunity zones. 
Again, we have a huge veterans' event in Las Cruces, New 
Mexico. SBA event. She is partnering with that because it is 
rural. There is a lot of value-add there. There is no doubt 
about it, and it does help.
    Mr. GOLDEN. Madam Chair, I am well past time, but I 
cannot----
    Mr. VALLANTE. I appreciate that.
    Mr. GOLDEN.--express to you enough how impressed we were, 
and we want to see that office succeed.
    Mr. VALLANTE. That is great to hear. I appreciate that.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    I want to thank Mr. Vallante for being here today. As I 
stated in my opening remarks, district offices are integral to 
the success of SBA's mission. We cannot effectively facilitate 
access to capital in underserved markets, provide counseling to 
small businesses in emerging areas, help rural small business 
export their products around the world, or deliver SBA's other 
important programs without robust field operations on the 
ground.
    Mr. Vallante, I also hope that if you feel that you do not 
have the resources available to staff your field operations and 
your district offices, that you will relate that to the new 
Administrator so that we see a budget submission that really 
reflects the needs of your office.
    Mr. VALLANTE. Thank you.
    Chairwoman Velazqez. Today's hearing highlighted challenges 
currently facing OFO, and this Committee will continue with its 
oversight of OFO's operations to ensure SBA leadership 
addresses these challenges.
    But I want to again applaud SBA's field staff for their 
diligent work on behalf of American small businesses.
    I will ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    And if there is no further business to come before the 
Committee, we are adjourned. Thank you.
    Mr. VALLANTE. Thank you, Chairman.
    Chairwoman VELAZQUEZ. Thank you.
    [Whereupon, at 12:38 p.m., the committee was adjourned.]
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                 [all]
</pre></body></html>
